                     Fiscal Year 2004 Statutory Audit of
                     Compliance With Legal Guidelines
                       Restricting the Use of Records
                        of Tax Enforcement Results

                                    March 2004

                       Reference Number: 2004-40-066




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 19, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Fiscal Year 2004 Statutory Audit of
                                     Compliance With Legal Guidelines Restricting the Use of
                                     Records of Tax Enforcement Results (Audit # 200340051)


       This report presents the results of our review of compliance with legal guidelines
       restricting the use of records of tax enforcement results (ROTERs). The overall
       objective of this review was to determine if the Internal Revenue Service (IRS) complied
       with legal guidelines set forth in the IRS Restructuring and Reform Act of 1998
       (RRA 98) Section (§) 1204.1
       RRA 98 § 1204 (a) prohibits the IRS from using a ROTER to evaluate employees or to
       impose or suggest production quotas or goals. Section 1204 (b) requires that
       employees be evaluated using the fair and equitable treatment of taxpayers as a
       performance standard. Section 1204 (c) requires each appropriate supervisor to certify
       quarterly whether tax enforcement results were used in a prohibited manner. The
       Treasury Inspector General for Tax Administration is required under Internal Revenue
       Code § 7803(d)(1) (2000) to annually evaluate the IRS’ compliance with the provisions
       of RRA 98 § 1204.
       In summary, a review of 75 judgmentally sampled enforcement employees’
       performance and related supervisory documentation prepared between
       October 1, 2002, and August 31, 2003, showed the IRS is in compliance with RRA 98
       §§ 1204 (a) and (b). No instances of potential violations of the use of ROTERs were
       found, and the evaluations documented that employees were evaluated on the fair and


       1
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                          2

equitable treatment of taxpayers. In addition, a review of a statistical sample of
43 appropriate supervisors’ certifications indicated the IRS was in compliance with
RRA 98 § 1204 (c). All 43 of the appropriate supervisors completed a consolidated
office certification memorandum to the Commissioner certifying that ROTERs were not
used in a prohibited manner.
Management’s Response: IRS management is working to continue improving the
§ 1204 Program. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
             Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                  Restricting the Use of Records of Tax Enforcement Results




                                             Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Is Complying With the Law........................ Page 3
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 5
Appendix II – Major Contributors to This Report........................................ Page 7
Appendix III – Report Distribution List ....................................................... Page 8
Appendix IV – Sampling Methodology....................................................... Page 9
Appendix V – Management’s Response to the Draft Report ..................... Page 12
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
              Restricting the Use of Records of Tax Enforcement Results

                                 On July 22, 1998, the President signed the Internal
Background
                                 Revenue Service (IRS) Restructuring and Reform Act
                                 of 1998 (RRA 98) into law.1 Among many other
                                 requirements contained in the law, Section (§) 1204 restricts
                                 the use of enforcement statistics. Specifically, RRA 98
                                 § 1204 (a) prohibits the IRS from using a record of tax
                                 enforcement results (ROTER) to evaluate employees or to
                                 impose or suggest production quotas or goals.
                                 The IRS defines ROTERs as data, statistics, compilations of
                                 information, or other numerical or quantitative recordation
                                 of the tax enforcement results reached in one or more cases.
                                 A ROTER does not include the tax enforcement results of
                                 an individual case when used to determine whether an
                                 employee exercised appropriate judgment in pursuing
                                 enforcement of the tax laws based upon a review of the
                                 employee’s work on that individual case. Examples of
                                 ROTERs include the amount of dollars collected or
                                 assessed, the number of fraud referrals, and the number of
                                 seizures conducted.
                                 RRA 98 § 1204 (b) requires that employees be evaluated
                                 using the fair and equitable treatment of taxpayers as a
                                 performance standard. The IRS requires that employees
                                 administer the tax laws fairly and equitably; protect all
                                 taxpayers’ rights; and treat each taxpayer ethically with
                                 honesty, integrity, and respect. This provision of the law
                                 was enacted to provide assurance that employee
                                 performance is focused on providing quality service to
                                 taxpayers instead of achieving enforcement results.
                                 RRA 98 § 1204 (c) requires each appropriate supervisor to
                                 certify quarterly whether tax enforcement results were used
                                 in a prohibited manner. The IRS defines an appropriate
                                 supervisor as the highest-ranking executive in a distinct
                                 organizational unit that supervises directly or indirectly one
                                 or more § 1204 employees.2 IRS procedures require that,
                                 beginning with first-line managers of § 1204 employees,

                                 1
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                 2
                                   An enforcement employee (§ 1204 employee) is one who exercises
                                 judgment in recommending or determining whether or how the IRS
                                 should pursue enforcement of the tax laws.
                                                                                                 Page 1
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
     Restricting the Use of Records of Tax Enforcement Results

                        each level of management self-certify that they have not
                        used ROTERs in a manner prohibited by RRA 98
                        § 1204 (a). The appropriate supervisor is to then prepare
                        a consolidated office certification covering the entire
                        organizational unit.
                        Internal Revenue Code § 7803(d)(1) (2000) requires
                        the Treasury Inspector General for Tax
                        Administration (TIGTA) to determine annually whether the
                        IRS is in compliance with restrictions on the use of
                        enforcement statistics. The TIGTA previously performed
                        five mandatory reviews of the IRS’ use of enforcement
                        statistics in employee evaluations.
                        There has been an overall improvement in the IRS’
                        compliance with the law. The Fiscal Year (FY) 20033 audit
                        revealed no instances of the use of ROTERs or production
                        quotas or goals to evaluate employee performance. There
                        was also improvement over previous years in documenting
                        the evaluation of employees on the fair and equitable
                        treatment of taxpayers. In addition, a review of a statistical
                        sample of appropriate supervisors showed the IRS was
                        completing the required consolidated office certification
                        memoranda on whether ROTERs were used in a prohibited
                        manner.
                        This audit was performed during the period August 2003
                        through January 2004. The review included testing in the
                        Corporate Planning and Performance Division in the IRS
                        National Headquarters in Washington, D.C. The review
                        also included visits to the Large and Mid-Size Business,
                        Small Business/Self-Employed, Tax Exempt and
                        Government Entities, and Wage and Investment Divisions;
                        the Criminal Investigation and Appeals functions; and the
                        National Taxpayer Advocate offices located in
                        Birmingham, Alabama; Phoenix, Arizona; Miami, Florida;
                        and Ogden and Salt Lake City, Utah. This audit was
                        conducted in accordance with Government Auditing
                        Standards with the following scope limitation.



                        3
                         Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines
                        Restricting the Use of Records of Tax Enforcement Results (Reference
                        Number 2003-40-090, dated March 2003).
                                                                                     Page 2
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                 Restricting the Use of Records of Tax Enforcement Results

                                    While performing tests in the IRS Criminal Investigation
                                    function, auditors were not allowed direct access to
                                    performance documentation. The performance
                                    documentation is maintained electronically, and the TIGTA
                                    was not allowed direct access to this electronic system due
                                    to the Grand Jury information maintained on that same
                                    system. Therefore, the auditors had to rely on documents
                                    provided by the Criminal Investigation function managers
                                    sampled. The managers provided copies of documents such
                                    as annual evaluations, performance plans, drop files,
                                    workload reviews, midyear reviews, and award narratives.
                                    Grand Jury information was redacted from these documents
                                    as deemed necessary by Criminal Investigation function
                                    managers.
                                    Detailed information on our audit objective, scope, and
                                    methodology is presented in Appendix I. Major
                                    contributors to the report are listed in Appendix II.
                                    A review of 75 judgmentally sampled enforcement
The Internal Revenue Service Is
                                    employees’ performance and related supervisory
Complying With the Law
                                    documentation prepared between October 1, 2002, and
                                    August 31, 2003, revealed no instances of the use of
                                    ROTERs or production quotas or goals to evaluate
                                    employee performance. In all of the 75 performance files
                                    reviewed, there was documentation that the employees were
                                    being evaluated on the fair and equitable treatment of
                                    taxpayers. In addition, our review of 43 statistically
                                    sampled appropriate supervisors showed the IRS completed
                                    the required consolidated office certification memoranda on
                                    whether ROTERs were used in a prohibited manner.
                                    ROTERs were not identified in evaluation files, and
                                    employees were evaluated on the fair and equitable
                                    treatment of taxpayers
                                    The TIGTA conducted 5 unannounced site visits4 in
                                    October 2003 to review the performance and related
                                    supervisory files of 75 judgmentally selected enforcement
                                    employees. For the sites visited, we found the IRS was in
                                    compliance with RRA 98 §§ 1204 (a) and (b). We did not
                                    identify any ROTERs in the sampled employees’

                                    4
                                     The sites visited were Birmingham, Alabama; Phoenix, Arizona;
                                    Miami, Florida; and Ogden and Salt Lake City, Utah.
                                                                                                Page 3
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
     Restricting the Use of Records of Tax Enforcement Results

                        performance documentation from October 1, 2002, through
                        August 31, 2003. There was no indication that ROTERs
                        were used to impose or suggest production quotas or goals.
                        In addition, all of the 75 Employee Personnel Files included
                        documentation that the employees were being evaluated on
                        the fair and equitable treatment of taxpayers. The managers
                        used the evaluation form required as of October 1, 2001,
                        that included an assessment of the employees’ performance
                        on the fair and equitable treatment of taxpayers.
                        Appropriate supervisors completed the quarterly
                        consolidated office certification memorandum to the
                        Commissioner
                        A review of 43 statistically sampled appropriate supervisors
                        for the first 3 quarters of FY 2003 showed the IRS was in
                        compliance with RRA 98 § 1204 (c). The IRS had
                        completed the required consolidated office certification
                        memoranda and maintained the required supporting
                        documentation. The IRS designated executive-level
                        managers to serve as appropriate supervisors at various
                        times during FY 2003 for the purpose of certifying that no
                        RRA 98 § 1204 violations had occurred during the
                        applicable time period. These executive-level managers
                        included the highest-level managers in each IRS office; for
                        example, the Chief, Appeals; Chief, Criminal Investigation;
                        and National Taxpayer Advocate.




                                                                              Page 4
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                 Restricting the Use of Records of Tax Enforcement Results

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS)
complied with legal guidelines set forth in the IRS Restructuring and Reform Act
of 1998 (RRA 98) Section (§) 1204.1 We conducted the following tests to accomplish the
objective:
I.      To determine if the IRS complied with provisions of RRA 98 § 1204 (a), which states the
        IRS shall not use records of tax enforcement results (ROTERs) to evaluate employees or
        to impose production goals or quotas, and § 1204 (b), which states the IRS shall use the
        fair and equitable treatment of taxpayers by employees as one of the standards for
        evaluating employee performance, we:
        A. Identified procedures used to ensure compliance with the provisions of
           RRA 98 §§ 1204 (a) and (b) by interviewing IRS management and reviewing the
           Internal Revenue Manual (IRM), IRS memoranda, and the IRS 1204 Intranet web
           site.
        B. Identified the potential enforcement employee population using Treasury Integrated
           Management Information System data and validated the information using the IRS
           Discovery Directory.2 We judgmentally selected five audit sites and made
           unannounced visits to each site. We judgmentally selected 5 managers per site to
           review and then judgmentally selected 3 employees per manager for review, for a
           total of 75 enforcement employees. (See Appendix IV for details on how the
           population of potential enforcement employees was identified and the audit sites were
           selected.)
        C. Reviewed 75 enforcement employees’ Employee Personnel Files, including the
           annual performance appraisal/performance rating, performance plans, award
           justifications, written performance feedback, self-assessments, case and workload
           reviews, drop files, and 25 related enforcement employee managers’ meeting
           minutes, to determine if ROTERs were used in evaluating employees or to impose
           production goals or quotas. We determined whether there was documentation that the
           employees were being evaluated on the fair and equitable treatment of taxpayers and
           whether the required evaluation form was used. Documents prepared during the
           period October 1, 2002, through August 31, 2003, were included in the review. The
           Criminal Investigation function maintains its evaluation documentation electronically.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The Discovery Directory is a system that allows users to locate and view personal contact information for IRS
employees.
                                                                                                           Page 5
        Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Restricting the Use of Records of Tax Enforcement Results

         The Treasury Inspector General for Tax Administration is not allowed access to this
         electronic system due to the Grand Jury information maintained on the same system.
         Therefore, auditors had to rely upon documentation provided by the IRS for the six
         Criminal Investigation function employees in the sample.
II.   To determine if the IRS complied with provisions of RRA 98 § 1204 (c), which states
      each appropriate supervisor shall certify quarterly by letter to the IRS Commissioner
      whether tax enforcement results are being used in a manner prohibited by RRA 98
      § 1204 (a), we:
      A. Identified procedures used to ensure compliance with the provisions of
         RRA 98 § 1204 (c) by interviewing IRS management and reviewing the IRM,
         IRS memoranda, and the IRS 1204 Intranet web site.
      B. Obtained a listing from the IRS of the appropriate supervisors for the first 3 quarters
         of Fiscal Year 2003. We compared the listing received to IRM examples of potential
         appropriate supervisors to validate the reliability of information received. We
         selected a statistical sample of 43 appropriate supervisors from the total population of
         111 appropriate supervisors using a desired confidence level of 90 percent, an
         expected error rate of 4.2 percent, and a precision level of + 4 percent. (See
         Appendix IV for details on how the population and sample were selected.) We
         obtained from the IRS the quarterly self-certification documentation for
         43 appropriate supervisors. The supporting documentation for one of the appropriate
         supervisors’ consolidated certifications was not available.
      C. Reviewed the supporting documentation received to determine if all managers
         completed the required quarterly self-certification documents.




                                                                                         Page 6
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
              Restricting the Use of Records of Tax Enforcement Results

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Kristi L. Larson, Senior Auditor
Sharon Summers, Senior Auditor
James M. Traynor, Senior Auditor
Gwendolyn M. Green, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 7
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
              Restricting the Use of Records of Tax Enforcement Results

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Corporate Planning and Performance OS:CFO:CP
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Tax Administration Coordination SE:OTAC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Chief, Appeals AP
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO
       Associate Chief Financial Officer for Corporate Planning and Performance OS:CFO:CP
       Director, Tax Administration Coordination SE:OTAC
       National Taxpayer Advocate TA
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                   Page 8
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                 Restricting the Use of Records of Tax Enforcement Results

                                                                                                   Appendix IV


                                         Sampling Methodology

Judgmental sample of enforcement employees
Because the Internal Revenue Service (IRS) has no systemic way to identify which employees
have enforcement-related responsibilities, and since an employee’s duties may change regularly,
there is no way of knowing at any given time the total number of employees engaged in
enforcement activities. To conduct the audit, it was necessary for the Treasury Inspector General
for Tax Administration to identify a potential enforcement employee population from which to
select employee documentation for review. We obtained a computer download of the Treasury
Integrated Management Information System (TIMIS)1 data for all IRS employees for the period
July 13, 2003, through July 26, 2003. We relied on the data obtained from the TIMIS and
validated the information during the audit using the IRS Discovery Directory2 and the
employees’ personnel files.
To create the potential population of enforcement employees, we extracted from the TIMIS
database a listing of enforcement employees based on the following criteria:
    •   Work location in the 48 contiguous states and the District of Columbia except for
        employees in functional areas that received a waiver from the IRS Commissioner in
        Fiscal Year (FY) 2002 because the function did not have duties covered by the IRS
        Restructuring and Reform Act of 1998 (RRA 98) Section (§) 1204.3
    •   Specific job series considered enforcement positions: 110, 301, 340, 343, 501, 503, 512,
        526, 592, 598, 905, 920, 930, 950, 962, 986, 987, 1101, 1169, 1171, 1510, 1801, 1802,
        and 1811.
After selection based on the above criteria, locations with fewer than seven employees were
removed from the population because we needed locations that would likely have managers
onsite.
This information was used to estimate the number of potential enforcement employees within
each business unit and functions within each city. Our review was conducted in the Large and
Mid-Size Business (LMSB), Small Business/Self-Employed (SB/SE), Tax Exempt and
Government Entities (TE/GE), and Wage and Investment (W&I) Divisions; the Criminal
Investigation (CI) and Appeals (AP) functions; and the National Taxpayer Advocate office
(NTA).

1
  The TIMIS is a system that supports payroll and personnel processing and reporting requirements.
2
  The Discovery Directory is a system that allows users to locate and view personal contact information for IRS
employees.
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                           Page 9
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                 Restricting the Use of Records of Tax Enforcement Results

Because of the improved compliance over the last two audit periods, we determined that a
judgmental sample would be adequate in selecting sites and employees for review. The potential
enforcement employee population disbursement, geographic coverage, and prior audit coverage
were all factors considered in selecting the five audit sites of Birmingham, Alabama;
Phoenix, Arizona; Miami, Florida; and Ogden and Salt Lake City, Utah.
Once the audit sites were determined, the TIMIS data and IRS Discovery Directory were used to
determine the number of managers as well as the number of different addresses of the managers
located within the audit sites. This information was considered when selecting the business units
and functions to be reviewed at each site.
Unannounced visits were made to each of the five audit sites. The listing of potential
enforcement employee managers compiled using the Discovery Directory allowed us to identify
initial contacts to begin our sampling. The initial contact points for some sites also identified
other enforcement employee managers located on site. This information was used, as well as the
managers we had previously identified, to judgmentally select 5 managers per site and
3 employees per manager, for a total of 75 employees. We reviewed the selected employees’
performance documentation prepared during October 1, 2002, through August 31, 2003, for
compliance with the requirements of RRA 98 §§ 1204 (a) and (b).
The sample distribution follows:


              Business          BU            Number of        Number of        Business Unit as
               Unit           Reviewed        Managers         Employees         Percentage of
               (BU)              at            Selected         Selected          Population4
                  AP             1 site             1                3                   3%
                  CI            2 sites             2                6                   8%
               LMSB             2 sites             2                6                  10%
                NTA              1 site             1                3                   4%
               SB/SE            5 sites            16                48                 64%
               TE/GE            1 sites             1                3                   4%
                W&I             2 sites             2                6                   7%
             TOTALS                                25                75                100%




4
 These percentages were calculated on the total number of employees we identified in each of the business units.
These percentages were then used to determine how many employees in each business unit should be included in
our sample.
                                                                                                          Page 10
          Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
               Restricting the Use of Records of Tax Enforcement Results

Statistical sample of appropriate supervisors
A statistical sample of appropriate supervisors was selected for review to determine the IRS’
compliance with the self-certification requirement of RRA 98 § 1204 (c).
The IRS Organizational Performance Division, Data Analysis, Standards, and Reporting function
identified the population of 111 appropriate supervisors for the first 3 quarters of FY 2003.
The audit period did not allow for the fourth quarter certifications to be included in the sample.
We used attribute sampling and the following formula to calculate the minimum sample size (n)
of 43:
       n = [N* p(1-p)] / [N* (A/Z) ˆ2 +p(1-p)].
       n = Sample size.
       N = Population (111 appropriate supervisors for the first 3 quarters of FY 2003).
       Z = Desired Confidence Level (90 percent).
       p = Expected Error Rate (4.2 percent).
       A = Precision Level (+ 4 percent).
The appropriate supervisors were numbered 1 through 111. We used a Microsoft Excel random
number program to randomly select 43 numbers. The randomly selected numbers corresponded
to a specific appropriate supervisor for a specific quarter.
We reviewed the supporting documentation for the 43 appropriate supervisor consolidated office
certifications sampled. This included reviewing the Consolidated Office Certification
Memorandum and the supporting managers’ quarterly self-certification documents.




                                                                                           Page 11
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
     Restricting the Use of Records of Tax Enforcement Results

                                                                 Appendix V


          Management’s Response to the Draft Report




                                                                       Page 12
